VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                       Inspection of 

                                                                    VA Regional Office 

                                                                     Portland, Oregon 





                                                                                 October 8, 2014
                                                                                  14-02100-271 

                                 ACRONYMS

FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SMC          Special Monthly Compensation
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                      Report Highlights: Inspection of VA
                      Regional Office Portland, OR

Why We Did This Review                            staff completed the SAOs correctly. VARO
                                                  staff did not timely process 10 of 30 proposed
The Veterans Benefits Administration (VBA)        benefits reduction cases that averaged
has 56 VA Regional Offices (VAROs) and a          5-month delays and resulted in overpayment
Veterans Service Center (VSC) in Cheyenne,        of benefits to veterans. The processing delays
WY, that process disability claims and            occurred because management did not provide
provide a range of services to veterans. We       oversight and prioritize this workload.
evaluated the Portland VARO to see how
well it accomplishes this mission. Claims         What We Recommended
processing that lacks compliance with VBA
procedures can result in the risk of paying       We recommended the VARO Director
inaccurate and unnecessary financial benefits.    develop and implement a plan to ensure staff
Office of Inspector General benefits              timely process temporary 100 percent
inspectors conducted its VARO inspection          disability     evaluation     cases    requiring
work during April to May 2014.                    reductions, and review the 364 temporary
                                                  100 percent disability evaluations remaining
What We Found                                     from our inspection universe and take
                                                  appropriate action. The Director should assess
Overall, VARO staff did not accurately            the effectiveness of SMC training, ensure
process 24 (29 percent) of 84 disability          SAOs are complete, and implement a plan to
claims reviewed. We sampled claims we             ensure       management        oversight     and
considered at higher risk of processing errors,   prioritization of benefits reduction cases. We
thus these results do not represent this          recommended the Under Secretary for
VARO’s overall disability claims processing       Benefits implement a national plan for an
accuracy rate.                                    additional level of review of SMC and
                                                  ancillary benefits claims.
Specifically, 10 of 30 temporary 100 percent
disability evaluations we reviewed were           Agency Comments
inaccurate, generally because management
did not prioritize processing of such cases       The Under Secretary for Benefits and the
requiring reduced evaluations. VARO staff         Director of the Portland VARO concurred
incorrectly processed 3 of 30 traumatic brain     with all recommendations. Management’s
injury claims; however, these inaccuracies        planned actions are responsive and we will
did not constitute a systemic issue. VARO         follow up as required on all actions.
staff also incorrectly processed 11 of
24 special monthly compensation (SMC)
claims due to a lack of training and no
second-level review policy.
                                                             LINDA A. HALLIDAY
All 11 Systematic Analyses of Operations
                                                         Assistant Inspector General
(SAOs) were incomplete because management
                                                          for Audits and Evaluations
did not provide adequate oversight to ensure
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    I. Disability Claims Processing ...................................................................................................2
 
        Finding 1  Portland VARO Needs To Improve Disability Claims Processing Accuracy ....2
 
                           Recommendations .............................................................................................10
 
    II. Management Controls ..........................................................................................................12
 
        Finding 2  Portland VARO Lacked Adequate Oversight To Ensure Complete SAOs ......12
 
                           Recommendation...............................................................................................13
 
        Finding 3  Portland VARO Lacked Oversight To Ensure Prompt Action on Proposed 

                   Benefits Reductions ..........................................................................................14
 
                           Recommendation...............................................................................................15
 
Appendix B                 Inspection Summary..........................................................................................18
 
Appendix C                 Under Secretary for Benefits Comments ..........................................................19
 
Appendix D                 VARO Director’s Comments............................................................................21
 
Appendix E                 OIG Contact and Staff Acknowledgments........................................................24
 
Appendix F                 Report Distribution ...........................................................................................25
 
                                                              Inspection of the VARO Portland, OR



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other 	                Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Under Secretary for Benefits comments on a
                       draft of this report.
                    	 Appendix D provides the Portland VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                 1
                                                                       Inspection of the VARO Portland, OR



                         RESULTS AND RECOMMENDATIONS
                         I. Disability Claims Processing

Claims                   The OIG Benefits Inspection team focused on accuracy in processing
Processing               temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy
                         claims, and special monthly compensation (SMC) and ancillary benefits. We
                         evaluated these claims processing issues and their impact on veterans’
                         benefits.

Finding 1 	              Portland VARO Needs To Improve Disability Claims Processing
                         Accuracy

                         The Portland VARO did not consistently process temporary 100 percent
                         disability evaluations, TBI-related cases, or entitlements to SMC and
                         ancillary benefits. We sampled claims related only to specific conditions
                         that we considered at higher risk of processing errors. As a result, the errors
                         identified do not represent the universe of disability claims or the overall
                         accuracy rate at this VARO. Overall, VARO staff incorrectly processed
                         24 of the total 84 disability claims we sampled, resulting in 287 improper
                         monthly payments to 15 veterans totaling approximately $306,833. The
                         following table reflects the errors affecting, and those with the potential to
                         affect, veterans’ benefits processed at the Portland VARO.

             Table 1. Portland VARO Disability Claims Processing Accuracy for Three
                                High-Risk Claims Processing Areas
                                             Claims                Claims
                                                                                            Claims
                                          Inaccurately           Inaccurately
                            Claims                                                        Inaccurately
     Type of Claim                         Processed:             Processed:
                           Reviewed                                                        Processed:
                                       Affecting Veterans’    Potential To Affect
                                                                                             Total
                                             Benefits         Veterans’ Benefits
    Temporary
    100 Percent
                               30               9                       1                       10
    Disability
    Evaluations
    TBI Claims                 30               0                       3                         3
    SMC and
                               24               6                       5                       11
    Ancillary Benefits
     Total                     84              15                       9                       24
    Source: VA OIG analysis of the Veterans Benefits Administration’s (VBA) temporary 100 percent disability
    evaluations paid at least 18 months, TBI disability claims completed in the first quarter fiscal year
    (FY) 2014, and SMC and ancillary benefits claims completed in calendar year 2013




VA Office of Inspector General                                                                                 2
                                                              Inspection of the VARO Portland, OR


Temporary           VARO staff incorrectly processed 10 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a veteran’s service-connected disability following
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination. VSC staff then have 30 days to process the reminder
                    notification by establishing an appropriate control to initiate action.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduced compensation payments, VSC staff must inform the
                    beneficiary of the proposed reduction in benefits. In order to provide
                    beneficiaries due process, VBA allows 60 days for the veteran to submit
                    additional evidence to show that compensation payments should continue at
                    their present level. On the 65th day following due process notification,
                    action is required to reduce the evaluation and thereby minimize
                    overpayments.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 9 of the 10 processing errors we
                    identified affected benefits and resulted in 62 improper monthly payments to
                    9 veterans totaling approximately $132,649 in overpayments. These
                    improper payments occurred from June 2013 to April 2014. Following are
                    descriptions of these errors identified during our review in April to May
                    2014.

                    	 On January 24, 2013, VSC staff proposed reducing a veteran’s temporary
                       100 percent evaluation for bladder cancer. At the time of our review,
                       VSC staff had not reduced the evaluation and the veteran continued to
                       receive monthly benefits at the 100 percent disability rate. As a result,
                       VA overpaid the veteran about $25,461 spanning a period of 10 months.
                    	 VSC staff proposed reducing a veteran’s temporary 100 percent
                       evaluation for prostate cancer on January 28, 2013. VSC staff had not
                       reduced the evaluation and the veteran continued receiving monthly
                       benefits at the 100 percent disability rate. As a result, VA overpaid the
                       veteran approximately $20,358 over a period of 9 months.
                    	 VSC staff proposed a reduction in a veteran’s temporary 100 percent
                       evaluation for prostate cancer on April 26, 2013. VSC staff had not

VA Office of Inspector General                                                                 3
                                                              Inspection of the VARO Portland, OR


                        reduced the evaluation and the veteran continued receiving monthly
                        benefits at the 100 percent disability rate. As a result, VA overpaid the
                        veteran about $19,189 spanning a period of 7 months.
                    	 Although VSC staff proposed reducing a veteran’s temporary
                       100 percent evaluation for prostate cancer on January 29, 2013, staff had
                       not reduced the evaluation at the time of our review. As a result, the
                       veteran continued receiving monthly benefits at the 100 percent disability
                       rate and VA overpaid the veteran approximately $18,888 for a period of
                       9 months.
                    	 VSC staff had not taken action to reduce a temporary 100 percent
                       evaluation for prostate cancer as proposed on March 15, 2013. The
                       veteran continued receiving monthly benefits at the 100 percent disability
                       rate.    As a result, VA overpaid the veteran approximately
                       $13,291 spanning a period of 8 months.
                    	 VSC staff received notice of a veteran’s hospitalization on
                       October 9, 2012, for prostate cancer but did not establish a suspense
                       diary in the electronic record. As such, staff removed the possibility of
                       receiving reminder notifications to schedule a medical reexamination.
                       As a result, VA overpaid the veteran about $12,278 over a period of
                       6 months.
                    	 On July 23, 2013, VSC staff proposed reducing a veteran’s temporary
                       100 percent evaluation for prostate cancer. VSC staff had not reduced
                       the evaluation, and the veteran continued receiving monthly benefits at
                       the 100 percent disability rate. As a result, VA overpaid the veteran
                       approximately $10,503 for a period of 4 months.
                    	 Although VSC staff proposed reducing a veteran’s temporary
                       100 percent evaluation for prostate cancer on April 5, 2013, the
                       evaluation had not been reduced and the veteran continued receiving
                       monthly benefits at the 100 percent disability rate. As a result, VA
                       overpaid the veteran approximately $9,270 spanning a period of
                       7 months.
                    	 On September 9, 2013, VSC staff proposed to reduce a veteran’s
                       temporary 100 percent evaluation for prostate cancer. VSC staff had not
                       reduced the evaluation at the time of our April to May 2014 review, and
                       the veteran continued to receive monthly benefits at the 100 percent
                       disability rate. As a result, VA overpaid the veteran approximately
                       $3,411 spanning a period of 2 months.

                    The remaining case had the potential to affect a veteran’s benefits. On
                    April 2, 2014, VSC staff received a timely request from the veteran for a
                    personal hearing in response to a proposed benefits reduction. At the time of
                    our inspection later that month, staff had not scheduled a hearing because
                    this work was not considered a priority. As a result, the veteran was still
                    waiting for the opportunity to provide evidence to refute the proposed

VA Office of Inspector General                                                                 4
                                                               Inspection of the VARO Portland, OR


                    benefits reduction. Until VARO staff conduct the requested hearing, no
                    action can be taken to reevaluate the claim, and monthly benefits will
                    continue to be paid at the 100 percent disability rate.

                    Generally, processing inaccuracies occurred because VARO management
                    addressed other priorities instead of temporary 100 percent disability claims
                    that required reduced evaluations. Delays ranged from 2 months to
                    10 months. An average of 7 months elapsed from the time staff should have
                    reduced the temporary 100 percent disability evaluations until April 2014.
                    The VSC manager stated that instead of processing these temporary
                    100 percent disability claims, VARO focus was on processing other
                    workloads that VBA tracks and measures for timeliness. As a result,
                    veterans may receive benefits payments in excess of the amounts warranted
                    for their levels of disability. We provided VARO management with
                    364 claims remaining from our universe of 394 for its review to determine if
                    action is required.

                    VARO management did not concur with the errors we identified.
                    Management responded:

                        Although this Regional Office understands its responsibilities to take
                        actions to reduce benefits when appropriate, our inability to execute
                        these in a timely manner is a workload issue, and not a quality error
                        that would be cited by Compensation Service’s Quality Assurance
                        staff.

                    We disagree. It is a VBA management responsibility to address this issue,
                    which entails millions of dollars in improper payments. Where VBA lacks
                    sufficient staff to properly address its management responsibilities, it should
                    make its case for an increase in full-time equivalents through the normal
                    budget process. Without appropriate priority for this type of work, delays in
                    processing reductions result in unsound financial stewardship of veterans’
                    monetary benefits and fail to minimize overpayments.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Portland,
Prior VA OIG        Oregon (Report No. 11-00070-93, February 22, 2011), we reported VARO
Inspection
                    staff incorrectly processed 16 of 30 temporary 100 percent disability
                    evaluations we reviewed. The most frequent processing errors occurred
                    because staff did not enter suspense diaries in the electronic system to ensure
                    they received reminder notifications to schedule medical reexaminations to
                    support the evaluations. VARO management did not provide oversight to
                    ensure VSC staff entered the suspense diaries. The Director concurred with
                    our recommendation to review the 183 temporary 100 percent evaluations
                    remaining from our inspection universe. Also, the Director stated the VARO
                    would implement a procedure to require a review of all confirmed and
                    continued temporary 100 percent evaluations to ensure staff properly


VA Office of Inspector General                                                                   5
                                                                  Inspection of the VARO Portland, OR


                    recorded future medical examinations dates in the electronic record. The
                    OIG closed the recommendations on August 9, 2011.

                    During our inspection in April to May 2014, we identified one case where
                    VSC staff delayed scheduling a future medical reexamination; however, we
                    identified no cases where staff did not input suspense diaries in the electronic
                    system to generate reminders to follow up on temporary 100 percent
                    disability evaluations. As such, we made no further recommendation in this
                    area and we recognize the improvement realized in the management of these
                    claims.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an Rating Veterans Service
                    Representative (RVSR) evaluates until the RVSR demonstrates 90 percent
                    accuracy in TBI claims processing. The policy indicates second-signature
                    reviewers come from the same pool of staff as those used to conduct local
                    station quality reviews.

                    We determined VARO staff incorrectly processed 3 of 30 TBI claims—all
                    3 inaccuracies had the potential to affect veterans’ benefits.

                    Following are descriptions of these errors.

                    	 An RVSR granted service connection for headaches secondary to a TBI
                       that a veteran sustained in service, but denied service connection for the
                       claimed TBI. VBA policy requires that service connection for a primary
                       condition be established prior to assigning any other disabilities shown to
                       be due to that condition.           Because of the veteran’s multiple
                       service-connected disabilities, this inaccuracy did not affect the veteran’s
                       monthly benefits. However, it could potentially affect future benefits if
                       the veteran’s other service-connected disabilities worsen or if service
                       connection is granted for a new disability.
                    	 VARO staff prematurely denied TBI without providing a veteran
                       adequate notice under the Veterans Claims Assistance Act. On

VA Office of Inspector General                                                                     6
                                                                Inspection of the VARO Portland, OR


                        November 26, 2013, staff informed the veteran that she had 30 days to
                        submit additional evidence. However, the decision was made on
                        December 7, 2013, prior to expiration of the 30-day period.
                    	 An RVSR incorrectly assigned a 10 percent evaluation for a veteran’s
                       TBI based on memory loss. However, the medical examiner associated
                       the memory loss with the veteran’s mental condition. In addition, VARO
                       staff did not schedule the veteran for a separate examination for his
                       residual headaches as VBA policy required. Because of the veteran’s
                       multiple service-connected disabilities, this error did not affect the
                       veteran’s monthly benefits. However, it has the potential to affect future
                       benefits if the veteran’s other service-connected disabilities worsen or if
                       service connection is granted for a new disability.

                    The three TBI claims processing inaccuracies identified within our selected
                    sample were unique and did not constitute a common trend, pattern, or
                    systemic issue. As such, we made no recommendation for improvement in
                    this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Portland,
Prior VA OIG        Oregon (Report No. 11-00070-93, February 22, 2011), we reported VARO
Inspection          staff incorrectly processed 7 of 30 TBI claims we reviewed. The most
                    frequent processing errors occurred due to staff misinterpreting VBA policy
                    and using insufficient medical examinations to evaluate TBI-related
                    residuals. In response to our recommendations, the VARO Director agreed
                    to provide training on how to identify and return insufficient medical
                    examinations. The OIG closed these recommendations based on a review of
                    the training documents that were submitted by the VARO.

                    During our inspection in April to May 2014, we found one error in
                    TBI-related claims where staff used an insufficient medical examination. As
                    such, we determined the VARO’s actions in response to our previous
                    recommendations appeared to be effective, and we made no further
                    recommendation in this area.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation
and Ancillary
                    level of disability present. Therefore, VBA established SMC to recognize
Benefits            the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, the
                    inability to naturally control bowel and bladder functions, or the need to rely
                    on others for daily life activities like bathing or eating. Generally, VBA
                    grants entitlement to SMC when the following conditions exist.

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities

VA Office of Inspector General                                                                    7
                                                               Inspection of the VARO Portland, OR


                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that, without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under Title 38 United States Code,
                       Chapter 35
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We examined whether VARO
                    staff accurately processed entitlement to SMC and ancillary benefits
                    associated with anatomical loss or loss of use of two or more extremities or
                    bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 11 of 24 claims involving SMC and
                    ancillary benefits—6 of the 11 affected veterans’ benefits. The errors
                    resulted in underpayments totaling approximately $101,567 and
                    overpayments totaling approximately $72,617, representing 225 improper
                    monthly payments from June 1999 to April 2014. Following are descriptions
                    of these errors.

                    	 An RVSR did not grant a higher level of SMC for a veteran’s additional
                       permanent disability independently evaluated at 50 percent disabling for
                       loss of use of both legs preventing natural knee action, as required by
                       VBA policy. As a result, the veteran was underpaid approximately
                       $50,095 from June 1999 to May 2013 spanning a period of 167 months.
                       Further, the RVSR incorrectly assigned a higher level of SMC requiring
                       two separate 100 percent disability evaluations, which the veteran did not
                       have at the time of our review. As a result, VA overpaid the veteran
                       approximately $31,997 from May 2013 to April 2014 spanning a period
                       of 11 months.
                    	 An incorrect effective date was continued for a veteran’s entitlement to
                       SMC for aid and attendance for loss of use of both legs, along with a total


VA Office of Inspector General                                                                    8
                                                              Inspection of the VARO Portland, OR


                        loss of control of bowel and bladder functions. Further, the RVSR
                        assigned an incorrect effective date for the grant of SMC at the highest
                        level. As a result, VA underpaid the veteran approximately $44,380 over
                        a period of 14 months.
                    	 In one case, an RVSR incorrectly assigned a higher level of SMC
                       requiring two separate 100 percent disability evaluations, which a veteran
                       did not have at the time of our review. As a result, VA overpaid the
                       veteran approximately $32,602 for a period of 10 months.
                    	 Although allowed by VBA policy, an RVSR did not grant a higher level
                       of SMC for a veteran’s loss of use of three extremities and an additional
                       permanent disability independently evaluated at 50 percent disabling.
                       Further, the RVSR assigned an incorrect effective date and the wrong
                       SMC codes to determine the veteran’s disability benefits payments. As a
                       result, VA underpaid the veteran approximately $7,092 spanning a period
                       of 6 months.
                    	 An RVSR continued entitlement to SMC requiring two separate
                       100 percent disability evaluations, which a veteran did not have at the
                       time of our review. The RVSR nonetheless incorrectly granted
                       entitlement to SMC based on a higher level of care. As a result, VA
                       overpaid the veteran about $6,260 over a period of 6 months.
                    	 In the final case, an RVSR incorrectly assigned a higher level of SMC
                       requiring two separate 100 percent disability evaluations, which a veteran
                       did not have at the time of our review. As a result, VA overpaid the
                       veteran approximately $1,759 spanning a period of 11 months.

                    The remaining five errors had the potential to affect veterans’ benefits.
                    Summaries of those errors follow.

                    	 In two cases, RVSRs granted higher levels of SMC requiring two
                       separate 100 percent disability evaluations, which the veterans did not
                       have at the time of our review. Subsequently, the RVSRs used incorrect
                       SMC codes to determine the veterans’ disability benefits payments.
                       Although these errors did not affect the veterans’ current monthly
                       benefits, they may affect future monthly benefits. For example, if the
                       veterans become hospitalized at Government expense, their monthly
                       payments would be reduced to an incorrect SMC rate.
                    	 An RVSR did not grant the highest level of SMC, based on medical
                       evidence and used the incorrect SMC codes to determine a veteran’s
                       disability benefits payments. Although this error did not affect the
                       veteran’s current monthly benefits, it can affect future monthly benefits.
                       For example, if the veteran becomes hospitalized at Government
                       expense, his monthly payment would be reduced to an incorrect SMC
                       rate.


VA Office of Inspector General                                                                 9
                                                              Inspection of the VARO Portland, OR


                    	 An RVSR did not grant a veteran entitlement to specially adapted
                       housing, a benefit worth up to $67,555. The RVSR also did not grant
                       entitlement to an automobile and adaptive equipment allowance, a
                       benefit currently worth up to $19,817. This error did not affect the
                       veteran’s monetary payments because once entitlement is granted the
                       veteran must apply for these benefits.
                    	 In the final case, an RVSR provisionally decided a veteran’s entitlement
                       to SMC. However, VARO staff did not ensure existing required controls
                       were functioning as needed to track and finalize the claim. As a result,
                       the veteran’s claim had the potential to never receive a final decision
                       with appeal rights if we had not identified it during our April to May
                       2014 review.

                    Errors related to SMC and ancillary benefits were generally due to a lack of
                    training. VARO training records showed that staff received higher-level
                    SMC training in January 2014. However, prior to that date, the last time
                    staff received SMC training was in December 2011. We could not assess the
                    adequacy of the January 2014 training because VSC staff completed the
                    cases we reviewed before this date. Further, VBA policy allows the VSC
                    manager the discretion to require a second-level review for SMC claims. In
                    the 11 errors that we identified, VARO staff did not conduct second-
                    signature reviews because VSC management did not have a second-signature
                    review policy in place for SMC cases. RVSRs we interviewed stated that a
                    second-signature review would increase the accuracy of these difficult and
                    infrequent cases.

                    Recommendations

                    1.	 We recommended the Portland VA Regional Office Director implement
                        a plan to ensure staff timely process rating reductions for temporary
                        100 percent disability evaluations.
                    2.	 We recommended the Portland VA Regional Office Director conduct a
                        review of the 364 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.
                    3.	 We recommended the Portland VA Regional Office Director assess the
                        effectiveness of training for special monthly compensation and ancillary
                        benefits claims.
                    4.	 We recommended the Under Secretary for Benefits implement a national
                        plan for an additional level of review for special monthly compensation
                        and ancillary benefits claims.

Management          The VARO Director concurred with our recommendations and is following
Comments            VBA national policy to identify and assign to the VARO of jurisdiction any
                    temporary 100 percent disability evaluation lacking a diary to ensure future
                    action. The VARO of jurisdiction then has 125 days to resolve the cases.

VA Office of Inspector General                                                                10
                                                               Inspection of the VARO Portland, OR


                    Staff will begin reviewing the remaining 364 temporary 100 percent
                    disability evaluations after September 30, 2014, and expects to complete the
                    review of these evaluations by December 31, 2014.

                    The challenge in processing higher-level special monthly compensation
                    cases is the infrequency with which RVSRs work these types of cases. On
                    June 23, 2014, the VARO implemented a second-signature procedure for
                    cases that involve higher-levels of special monthly compensation to allow for
                    an additional layer of quality review and increased exposure of these rare and
                    complex cases to RVSRs.

                    The Under Secretary for Benefits concurred to review their process to
                    determine what action is most appropriate. If an additional level of review is
                    the right policy, VBA will implement national guidance requiring an
                    additional level of review for SMC and ancillary benefits related to SMC.

OIG Response        The Director’s comments and actions are responsive to the recommendations.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                 11
                                                              Inspection of the VARO Portland, OR


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must prepare annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

Finding 2           Portland VARO Lacked Adequate Oversight To Ensure Complete
                    SAOs

                    All 11 SAOs were incomplete due to missing required elements and because
                    recommendations lacked time frames for implementation and follow-up.
                    The VSC manager did not provide adequate oversight to ensure staff
                    completed SAOs in accordance with VBA policy. As a result, management
                    did not implement corrective actions to improve VSC operations when
                    existing and potential problems were identified. Interviews with the VSC
                    manager revealed he was aware the SAOs were incomplete, and he
                    acknowledged the “VSC needs to do a better job in this area.” He also stated
                    “ … once the SAOs are routed to the Director’s office, they are out of my
                    control.” During our inspection, VARO management informed us they were
                    developing a mechanism for tracking and implementing SAO
                    recommendations. However, due to the early stage of development, we
                    could not assess the effectiveness of this tool.

                    The Claims Processing Timeliness SAO is an example of an incomplete
                    SAO. During our inspection in April to May 2014, we identified multiple
                    instances among the proposed benefits reduction cases reviewed where
                    VARO staff did not take timely action to reduce payments as appropriate. If
                    the Portland VARO had completed the Claims Processing Timeliness SAO,
                    it may have detected this problem earlier and developed recommendations to
                    resolve it before we did as part of our inspection.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Portland,
Prior VA OIG        Oregon (Report No. 11-00070-93, February 22, 2011), we determined 4 of
Inspection
                    the 11 SAOs were either incomplete or were untimely submitted.
                    Specifically, 3 of the 11 SAOs were untimely. The Director of the Portland
                    VARO concurred with our recommendation to develop and implement a plan
                    to ensure staff complete SAOs timely and address all required elements. The
                    Director also established a stricter deadline schedule for completing SAOs.

VA Office of Inspector General                                                                12
                                                              Inspection of the VARO Portland, OR


                    The OIG closed this recommendation on August 9, 2011, after a copy of this
                    schedule was received.

                    During our inspection in April to May 2014, we did not find any SAOs that
                    were untimely submitted. We concluded the VARO’s corrective actions in
                    response to our 2011 recommendation were generally adequate. As such, we
                    made no recommendation for improving SAO timeliness.

                    Recommendation

                    5.	 We recommended the Portland VA Regional Office Director implement
                        a plan, and assess the effectiveness of the plan, to ensure adequate and
                        continuous oversight of completing Systematic Analyses of Operations.

Management          The VARO Director concurred with our recommendation and on
Comments            April 24, 2014, implemented an electronic SAO routing policy.
                    Electronically signed SAOs are now deposited into a shared network folder
                    by management who then email the Director’s Office for review. Staff
                    forward the emails through the review process and ultimately back to
                    management, which creates an audit trail and eliminates the possibility of
                    lost SAO files.

                    Divisions are now required to transfer approved recommendations to an SAO
                    recommendation tracking spreadsheet.                Discussions regarding
                    implementation or extensions to deadlines for addressing recommendations,
                    now take place during biweekly meetings with the Director. The SAO
                    master schedule and the SAO itself are updated to indicate they are
                    completed, to include implementation of all recommendations.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.

Benefits            VBA policy provides for compensation to veterans for conditions they
Reductions          incurred or aggravated during military service. The amount of monthly
                    compensation to which a veteran is entitled may change because his or her
                    service-connected disability may improve. Improper payments associated
                    with benefits reductions generally occur when beneficiaries receive
                    payments to which they are not entitled because VAROs do not take the
                    actions required to ensure correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final

VA Office of Inspector General                                                                13
                                                               Inspection of the VARO Portland, OR


                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation in order
                    to minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefits reductions. The new policy no longer
                    includes the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.

Finding 3 	         Portland VARO Lacked Oversight To Ensure Prompt Action on
                    Proposed Benefits Reductions

                    VARO staff delayed processing 10 of 30 cases involving benefits
                    reductions—all 10 affected veterans’ benefits. These errors occurred due to
                    a lack of emphasis on timely processing benefits reductions. Processing
                    delays resulted in overpayments totaling approximately $74,157,
                    representing 49 improper monthly payments to 10 veterans from
                    February 2013 to April 2014.

                    In the case with the most significant overpayment, VSC staff sent a letter to a
                    veteran on July 6, 2012, proposing to reduce the disability evaluation for his
                    prostate condition. In response to the letter, the veteran submitted additional
                    medical information for this condition. The VARO requested and obtained a
                    medical opinion on November 9, 2012, which did not justify rescinding the
                    proposed action. However, staff did not take action to reduce the evaluation
                    until October 17, 2013. As a result of the delay, VA overpaid the veteran
                    approximately $22,966 spanning a period of 11 months.

                    The 10 cases showed processing delays ranging from 1 to 12 months. An
                    average of 5 months elapsed from the time staff should have taken action to
                    reduce the benefits for the 10 cases.

                    These processing delays occurred because VARO management did not view
                    this workload as a priority, although the station’s Workload Management
                    Plan directed staff to review rating reduction cases weekly. Interviews with
                    management and staff confirmed that rating reductions were not a priority as
                    the VARO directed its attention to reducing the inventory of pending claims.
                    In addition to not prioritizing the rating reduction cases, management did not
                    provide oversight to ensure staff processed these cases in a timely manner.
                    As a result of the processing delays, veterans received erroneous benefits
                    payments.

                    VARO management nonconcurred with nine of the processing delays we
                    identified, stating that:


VA Office of Inspector General                                                                  14
                                                               Inspection of the VARO Portland, OR


                        Although this Regional Office understands its responsibilities to take
                        actions to reduce benefits when appropriate, our inability to execute
                        these in a timely manner is a workload issue, and not a quality error
                        that would be cited by Compensation Service’s Quality Assurance
                        staff.

                    We disagree. It is a VBA management responsibility to address this issue,
                    which entails millions of dollars in improper payments. Where VBA lacks
                    sufficient staff to properly address its management responsibilities, it should
                    make its case for an increase in full-time equivalents through the normal
                    budget process. Without appropriate priority for this type of work, delays in
                    processing reductions result in unsound financial stewardship of veterans’
                    monetary benefits and fail to minimize overpayments.

                    Recommendation
                    6.	 We recommended the Portland VA Regional Office Director implement
                        a plan to ensure oversight and prioritization of benefits reduction cases.

Management          The Director concurred with our recommendation and on June 4, 2014,
Comments            modified the VARO’s Workload Management Plan to include weekly
                    reviews of work products within all teams.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                   15
                                                              Inspection of the VARO Portland, OR


Appendix A          VARO Profile and Scope of Inspection

Organization        The Portland VARO administers a variety of services and benefits, including
                    compensation benefits; vocational rehabilitation and employment assistance;
                    public affairs; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of April 2014, the Portland VARO reported a staffing level of
                    212.5 full-time employees. Of this total, the VSC had 171.2 employees
                    assigned.

Workload            As of April 2014, VBA reported 9,768 pending compensation claims. On
                    average, claims were pending 157 days—42 days more than the national
                    target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of service to veterans. In April to May 2014, we
                    evaluated the Portland VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (8 percent) of 394 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database.            These cases
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    February 28, 2014. This is generally the longest period a temporary
                    100 percent disability evaluation may be assigned without review, according
                    to VBA policy. We provided VARO management with 364 claims
                    remaining from our universe of 394 for its review. We reviewed
                    30 (60 percent) of 50 disability claims related to TBI that the VARO
                    completed from October through December 2013.                We examined
                    24 (96 percent) of 25 veterans’ claims available involving entitlement to
                    SMC and related ancillary benefits that VARO staff completed from January
                    1, 2013, through December 31, 2013.

                    Prior to VBA consolidating Fiduciary Activities nationally, each VARO was
                    required to complete 12 SAOs. However, since the fiduciary consolidation,
                    VAROs are now required to complete 11 SAOs. Therefore, we reviewed
                    11 SAOs related to VARO operations. Additionally, we looked at
                    30 (47 percent) of 64 completed claims that proposed reductions in benefits
                    from October through December 2013.

VA Office of Inspector General                                                                16
                                                               Inspection of the VARO Portland, OR


                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is a VBA program management
                    decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the 114 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI claims, SMC and ancillary benefits, and completed claims related to
                    benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    As reported by VBA’s STAR program as of April 2014, the overall
                    claims-based accuracy of the VARO’s compensation rating-related decisions
                    was 93.7 percent. We did not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                 17
                                                                             Inspection of the VARO Portland, OR


Appendix B               Inspection Summary

                         Table 2 reflects the operational activities inspected, applicable criteria, and
                         whether or not we had reasonable assurance of VARO compliance.

                             Table 2. Portland VARO Inspection Summary
        Operational                                                                          Reasonable
         Activities                                    Criteria                              Assurance of
         Inspected                                                                           Compliance
     Disability Claims
        Processing
    Temporary 100 Percent      Determine whether VARO staff properly reviewed                     NO
    Disability Evaluations     temporary 100 percent disability evaluations. (38 CFR
                               3.103(b)) (38 CFR 3.105(e)) (38 CFR 3.327) (M21-1
                               MR Part IV, Subpart ii, Chapter 2, Section J) (M21-
                               1MR Part III, Subpart iv, Chapter 3, Section C.17.e)
    Traumatic Brain Injury     Determine whether VARO staff properly processed                    YES
    Claims                     claims for service connection for all disabilities related
                               to in-service TBI. (FL 08-34 and 08-36) (Training
                               Letter 09-01)
    Special Monthly            Determine whether VARO staff properly processed                    NO
    Compensation and           SMC and correctly granted entitlement to ancillary
    Ancillary Benefits         benefits. (38 CFR 3.350, 3.352, 3.807, 3.808, 3.809,
                               3.809a, 4.63, and 4.64) (M21-1MR IV.ii.2.H and I)
       Management
        Controls
    Systematic Analysis of     Determine whether VARO staff properly performed                    NO
    Operations                 formal analyses of their operations through completion
                               of SAOs. (M21-4, Chapter 5)
    Benefits Reductions        Determine whether VARO staff timely and accurately                 NO
                               processed disability evaluation reductions or
                               terminations. (38 CFR 3.103(b)(2)), (38 CFR 3.105(e)),
                               (38 CFR 3.501), (M21-1MR.IV.ii.3.A.3.e), (M21-
                               1MR.I.2.B.7.a), (M21-1MR.I.2.C), (M21-1MR.I.ii.2.f),
                               (M21-4, Chapter 2.05(f)(4)), (Compensation & Pension
                               Service Bulletin, October 2010)
    Source: VA OIG
    CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                               18
                                                                           Inspection of the VARO Portland, OR


Appendix C              Under Secretary for Benefits Comments



               Department of                                        Memorandum
               Veterans Affairs
       Date:       September 19, 2014
       From:       Under Secretary for Benefits (20)

       Subj:       OIG Draft Report - Inspection of the VA Regional Office, Portland, Oregon

         To:       Assistant Inspector General for Audits and Evaluations (52)


               1. 	 Attached is VBA’s response to recommendation 4 for the OIG Draft Report: Inspection
                    of the VA Regional Office, Portland, Oregon.
               2. 	 Questions may be referred to Christopher Denno, Program Analyst, at (202)
                    461-9125.




                   Attachment




VA Office of Inspector General                                                                             19
                                                                      Inspection of the VARO Portland, OR


Attachment
                               Veterans Benefits Administration (VBA)
                                   Comments on OIG Draft Report
                        Inspection of the VA Regional Office Portland, Oregon

VBA provides the following comments in response to the recommendation:

Recommendation 4: We recommended the Under Secretary for Benefits implement a national plan for
an additional level of review for special monthly compensation and ancillary benefits claims.

VBA Response: Concur in principle. VBA will review the process and determine what action is most
appropriate. If it is determined that an additional level of review is the right policy, VBA will develop and
implement national guidance requiring an additional level of review for higher levels of special monthly
compensation (SMC) that will include the ancillary benefits related to SMC. Target Completion Date:
December 31, 2014.




VA Office of Inspector General                                                                            20
                                                                           Inspection of the VARO Portland, OR


Appendix D              VARO Director’s Comments



                  Department of                                       Memorandum
                  Veterans Affairs

          Date:       September 8, 2014

          From:       Director, VA Regional Office Portland, Oregon

          Subj:       Inspection of the VA Regional Office, Portland, Oregon

            To:       Assistant Inspector General for Audits and Evaluations (52)


                  1. 	 The Portland VARO’s comments are attached on the OIG Draft Report: Inspection
                       of the VA Regional Office, Portland, Oregon.

                  2. 	 Please refer questions to Kevin Kalama, (503) 412-4595.


                      (original signed by:)

                      Chris Marshall 

                      Director





                      Attachment




VA Office of Inspector General                                                                             21
                                                                   Inspection of the VARO Portland, OR


Attachment

                                                                                     September 8, 2014
Portland (348)

OIG Recommendations:

Recommendation 1: We recommended the Portland VA Regional Office Director implement a plan to
ensure staff timely process rating reductions for temporary 100 percent disability evaluations.

    Portland RO Response: Concur

    VBA implemented a procedure in which an EP 684 is created in Central Office for any temporary
    100 percent case that lacks a future diary. The RO of jurisdiction is then assigned to resolve the EP
    684 within 125 days.

Recommendation 2: We recommended the Portland VA Regional Office Director conduct a review of
the 364 temporary 100 percent disability evaluations remaining from our inspection universe and take
appropriate action.

    Portland RO Response: Concur

    We will begin our review after September 30, 2014, and expect to be completed by December 31,
    2014.

Recommendation 3: We recommended the Portland VA Regional Office Director assess the
effectiveness of training for special monthly compensation and ancillary benefits claims.

    Portland RO Response: Concur

    The training is adequate for its purposes. The challenge with higher-level special monthly
    compensation cases (which this OIG site inspection targeted), is the infrequency with which raters
    happen upon them. On June 23, 2014, the RO implemented a second-signature procedure for
    special monthly compensation cases with rating decisions at the R1 and R2 levels to allow for not
    only an additional layer of quality review, but increased exposure of these rare and complex cases
    to raters.

Recommendation 5: We recommended the Portland VA Regional Office Director implement a plan, and
assess the effectiveness of the plan, to ensure adequate and continuous oversight of completing
Systematic Analyses of Operations.

    Portland RO Response: Concur

    On April 24, 2014, the RO implemented an electronic SAO routing policy. Electronically signed
    SAOs are now deposited into a shared network folder by the Division Chiefs who then email to the
    Director’s Office providing a hyperlink to the document for staff review and electronic signature by
    the Director. This email is forwarded through the review process and ultimately back to the Division,
    thus creating an audit trail and eliminating the possibility of lost SAO files.

    Divisions are now required to transfer approved recommendations to an SAO recommendation
    tracking spreadsheet. Discussion of SAO recommendation implementation or deadline extension
    now takes place during biweekly Division Chief meetings with the Director. The SAO master
    schedule and the SAO document itself are updated to indicate completion upon receipt of
    correspondence from the Division Chief that all recommendations have been implemented.



VA Office of Inspector General                                                                        22
                                                              Inspection of the VARO Portland, OR


Recommendation 6: We recommended the Portland VA Regional Office Director implement a plan to
ensure oversight and prioritization of benefits reduction cases.

    Portland RO Response: Concur

    On June 4, 2014, the RO modified its Workload Management Plan to include weekly reviews of EP
    600 cases within all Lanes of the Division, rather than in just the Non-Rating Lane.




VA Office of Inspector General                                                                23
                                                      Inspection of the VARO Portland, OR


Appendix E          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Ed Akitomo
                                         Orlan Braman
                                         Bridget Byrd
                                         Vinay Chadha
                                         Michelle Elliott
                                         Scott Harris
                                         Dana Sullivan
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                        24
                                                            Inspection of the VARO Portland, OR


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Western Area Director
                    VA Regional Office Portland Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Jeff Merkley, Ron Wyden
                    U.S. House of Representatives: Earl Blumenauer, Suzanne Bonamici,
                       Peter DeFazio, Kurt Schrader, Greg Walden




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              25
